CERTIFICATE OF SERVICE
I, Thomas V. Burch, a member of the Bar of this Court, certify that I have
served the enclosed Reply in Support of Petition for Certiorari by both electronic mail
and UPS priority mail on counsel listed below on May 26, 2021:
Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2218
Respectfully submitted,

May 26, 2021

Thomas V. Burch
Counsel of Record for Petitioner
University of Georgia School of Law
Appellate Litigation Clinic
225 Herty Drive
Athens, GA 30602
(706) 542-5236
tvburch@uga.edu

